                    May 11, 2000

                    KEITH A. STRANGE
                    VICE PRESIDENT, PURCHASING AND MATERIAL

                    SUBJECT:	 Review of Selected Postal Service Highway
                              Transportation Contracts
                              (Report Number BI-MA-00-001)

                    The Office of Inspector General (OIG) initiated a review
                    based on a hotline complaint alleging that Postal Service
                    highway transportation contracts allowed drivers to exceed
                    the U.S. Department of Transportation’s maximum driving
                    time requirements. This management advisory report
                    presents the results of our review.

Results in Brief	   The review showed that selected Postal Service highway
                    transportation contracts included a provision that was
                    inconsistent with the Department of Transportation
                    regulations, because it allowed drivers to drive up to 12
                    hours under circumstances which were not allowed by
                    regulations. Department of Transportation officials advised
                    the Postal Service of this issue in 1998 and suggested that
                    the contracts be revised. Postal Service officials stated that
                    they did not revise their contracts because they also
                    included a provision requiring drivers to comply with all
                    Department of Transportation regulations. Postal Service
                    officials believed that this provision protected the Postal
                    Service. In our view, unless the contracts are revised, they
                    may be misinterpreted to allow excessive driving time limits
                    and, thus, may increase the risk of accidents. In addition,
                    Postal Service may also be at risk of being held financially
                    responsible for such accidents.

                    We suggested that Postal Service management revise
                    highway transportation contracts to amend the provision
                    that is inconsistent with the Department of Transportation’s
                    regulations. We also suggested that management consider
                    issuing interim guidance while these contracts are being
Review of Selected Postal Service                                                 BI-MA-00-001
 Highway Transportation Contracts


                             revised. Management agreed that the contact language
                             should be changed to reflect current regulations and stated
                             they would implement appropriate language in new highway
                             contract solicitations and renewals. Management's
                             comments are included, in their entirety, in the appendix.

Background                   The Postal Service spent over $1.9 billion on highway
                             transportation and had approximately 17,000 active highway
                             contracts in fiscal year 1999.

                             During the course of our review we noted that a
                             1990 National Transportation Safety Board study found that
                             31 percent of fatal-to-the-driver heavy truck crashes showed
                             fatigue as a “ probable cause or factor.” Researchers at the
                             Center for Sleep Research at the University of South
                             Australia have found that 24 hours without sleep causes
                             nearly as much impairment as a .10 blood alcohol content,
                             the equivalent of being legally intoxicated in all 50 states. In
                             1998, over 5000 people were killed on United States
                             roadways in accidents involving large trucks. According to
                             Postal Service management, there are approximately 20-25
                             fatal accidents each year that involve Postal Service
                             contract drivers.

Objective, Scope, and        The objective of the review was to determine if Postal
Methodology                  Service highway transportation contracts were in
                             compliance with the Department of Transportation’s
                             maximum driving time regulations. To achieve the
                             objective, we examined 33 judgmentally selected highway
                             transportation contract files. We also interviewed Postal
                             Service officials and an investigator with the Department of
                             Transportation, Office of Motor Carrier Compliance Division.

                             This review was initiated as an investigation in March 1999
                             and was completed in May 2000 as a review, in accordance
                             with the President’s Council on Integrity and Efficiency,
                             Quality Standards for Inspections. We discussed our
                             conclusions and observations with appropriate management
                             officials and included their comments, where appropriate.




                                               2
Review of Selected Postal Service                                                BI-MA-00-001
 Highway Transportation Contracts




Postal Service               We examined the files for 33 judgmentally selected highway
Highway Contracts            transportation contracts and found that each contract stated
                             that maximum driving time should not exceed 10 hours if the
                             driver operates every day. The contract also allowed a
                             maximum driving time of 12 hours if a driver had at least 8
                             hours rest between trips and at least every third day off.

                             The provision for the 12-hour day was contrary to the
                             Department of Transportation regulations, which stated that
                             no driver could drive more than 10 hours unless they had 8
                             consecutive hours off duty and they were driving in adverse
                             conditions. Adverse conditions are defined by the
                             Department of Transportation as snow, sleet, fog, icy
                             highways or unusual road and traffic conditions which would
                             not allow a driver to complete their planned travel for the
                             day within a 10 hour period.

                             We interviewed a safety investigator with the Department of
                             Transportation’s Office of Motor Carrier Compliance
                             Division, who confirmed that the provision for a 12-hour day
                             in Postal Service highway contracts was not in compliance
                             with Department of Transportation maximum driving time
                             regulations. Department of Transportation officials stated
                             that they had advised the Postal Service of this conflict in
                             1998; however, at the time of our review the Postal Service
                             had not changed this provision.

                             A senior Postal Service official responsible for highway
                             contracts stated that he did not necessarily agree that there
                             was a problem with the contract clauses. He stated that a
                             considerable number (an estimated 6000 to 7000 contracts
                             out of over 17,000) were for short haul routes that would not
                             be affected by changing this clause. In addition, he stated
                             that although Postal Service highway contracts allow for
                             a12-hour day, there is a “protective clause” in the contracts,
                             which generally stated that contractors should follow all
                             Department of Labor and Department of Transportation
                             laws and regulations.

                             However, in our review of the contracts, we noted that this
                             “protective clause” was included in the safety section of the
                             contracts and did not make any specific reference to
                             Department of Transportation driving time requirements. In
                             addition, the clause which allowed drivers to exceed the 10-




                                               3
Review of Selected Postal Service                                                BI-MA-00-001
 Highway Transportation Contracts


                             hour limit, was in a separate section of the contracts dealing
                             with maximum driving times; and the clause did not refer to
                             the “protective clause.” As a result, we believe that the
                             contracts could be misunderstood, particularly if a driver
                             does not know the maximum driving limits of the
                             Department of Transportation regulations. Thus, the
                             contracts could result in drivers exceeding maximum driving
                             limits and increase the risk of accidents. In addition, the
                             contract as worded could expose the Postal Service to
                             financial risk from lawsuits associated with any accidents
                             that occur.

Suggestions                  We offer the following suggestions. The vice president,
                             Purchasing and Material should:

                             1. Direct the manager of National Mail Transportation
                                Purchasing to amend the highway transportation
                                contracts to be consistent with Department of
                                Transportation’s regulation. The contracts should
                                include a provision that no driver could drive more than
                                10 hours unless they had 8 consecutive hours off duty
                                and they were driving in adverse conditions.

                             2. Consult with General Counsel staff to determine if it
                                would be prudent to provide an interim letter to contract
                                carriers advising of the plans to revise contracts and
                                reaffirming the requirement to follow Department of
                                Transportation regulations.

Management’s                 Management agreed with the suggestions and stated that
Comments                     they would prepare and implement the appropriate
                             language in new highway contract solicitations and contract
                             renewals. In addition, management stated that Postal
                             Service General Counsel agreed that the 17,000 existing
                             contracts did not need to be modified prior to their renewal
                             dates.

Evaluation of                Management's comments are responsive to the suggestions
Management’s                 and the actions planned should correct the issue identified.
Comments




                                               4
Review of Selected Postal Service                                            BI-MA-00-001
 Highway Transportation Contracts




                             We appreciated the cooperation and courtesies provided by
                             your staff during the review. If you have any questions,
                             please contact me at (703) 248-2300.



                             Sylvia L. Owens
                             Assistant Inspector General
                              for Business Protection

                             cc: John R. Gunnels




                                              5
Review of Selected Postal Service                         BI-MA-00-001
 Highway Transportation Contracts


                        APPENDIX. MANAGEMENT'S COMMENTS




                                       6
Review of Selected Postal Service       BI-MA-00-001
 Highway Transportation Contracts




 Major Contributors to
 This Report




                                    7
